BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief in
Opposition in 21-328, Robyn Morgan, on behalf of
herself and all similarly situated individuals v.
Sundance, Inc., were sent via Next Day Service to the
U.S. Supreme Court, 3 copies by Next Day and e-mail
service to the following parties listed below, this 1st
day of October, 2021:
Karla Ann Gilbride
Public Justice, P.C.
1620 L St. NW, Ste. 630
Washington, DC 20036
(202) 861-5241
kgilbride@publicjustice.net
Counsel for Petitioner
Reyburn W. Lominack, III
Counsel of Record
Fisher & Phillips LLP
1320 Main Street
Suite 750
Columbia, SC 29201
(803) 740-7658
rlominack@fisherphillips.com
Joel W. Rice
Scott C. Fanning
Fisher & Phillips LLP
10 South Wacker Drive
Suite 3450
Chicago, IL 60606
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 1, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affi.ant on the date below designated.
Date:

2~W
rfat-v {}.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, Stale of Ohio

My Commission Elq>ires
f"ebruary 14, 2023

